BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Respondent Apple Inc.'s Response in Support
of the Petition for Writ of Certiorari in 20-1631,
Andrew Hirshfeld, Acting Under Secretary of
Commerce for Intellectual Property and Director, U.S.
Patent and Trademark Office v. Implicit, LLC, et al.,
was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 21st
day of June, 2021:
Andrew Hirshfeld
c/o Office of the General Counsel
United States Patent and Trademark Office
P.O. Box 1450
Alexandria, VA 22313-1450
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
J. Derek McCorquindale
Finnegan Henderson Farabow Garrett & Dunner LLP
1875 Explorer Street
Suite 800
Reston, VA 20190
571-203-2768
derek.mccorq uindale@finnegan.com

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Rory Patrick Shea
Lee Sullivan Shea & Smith LLP
656 W. Randolph Street
Floor 5W Chicago, IL 60661
312-754-9602
shea@ls3ip.com
John Caracappa
Steptoe & Johnson, LLP
1330 Connecticut Avenue, Nw
Washington, DC 20036
202-429-6267
jcaracap@steptoe.com
Michael Hartmann
Leydig, Voit & Mayer, LTD
180 N. Stetson
Suite 4900
312-616-5600
mhartmann@leydig.com
Matthew James Dowd
Dowd Scheffel PLLC
1717 Pennsylvania Avenue, NW Suite 1025
Washington, DC 20006
202-559-9175
mdowd@dowdscheffel.com
Gene Whan Lee
Perkins Coie LLP
1155 Avenue of the Americas
22nd Floor
New York, NY 10036
glee@perkinscoie.com

James Etheridge
Etheridge Law Group
2600 E. Southlake Boulevard
Suite 120-324
Southlake, TX 76092
817-470-7249
jim@etheridgelaw.com
Gregory H. Lantier
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006
gregory.lantier@wilmerhale.com
Debra J. McComas
Counsel of Record
Haynes and Boone, LLP
2323 Victory Ave., Suite 700
Dallas, TX 75219
(214) 651-5375
debbie.mccomas@haynesboone.com
Counsel for Respondent

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 21, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

b(a-1 /J...1

No~u~

- - - - -'

[seal]

AMY TRIPLETI MORGAN
Attorney at Law

